NO. 20-740
IN THE

SUPREME COURT OF THE UNITED STATES
JIM BOGNET, ET AL.,
Petitioners,
v.
VERONICA DEGRAFFENREID, ET AL.,
Respondents.
On Petition for Writ of Certiorari to the
United States Court Of Appeals
for the Third Circuit

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I
hereby certify that Respondents’ Brief in Opposition
contains 3,186 words, excluding the parts of the
document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the
foregoing is true and correct.
Executed March 15, 2021.

2

Jason A. Leckerman
Counsel of Record
Edward D. Rogers
Michael R. McDonald
Elizabeth V. Wingfield
BALLARD SPAHR LLP
1735 Market Street 51st Floor
Philadelphia, PA 19103-7599
T: 215.864.8266
E: leckermanj@ballardspahr.com
Counsel For Chester, Delaware,
and Montgomery County Boards
of Elections

